Writer’s Direct Dial:
404-458-3239
Fax: 404-651-6459

February 2, 2021
Honorable Scott Harris
Clerk of the United States Supreme Court
1 First Street, N.E.
Washington, D.C. 20543
RE: Leon Tollette v. Benjamin Ford, Warden, GDCP
Case No. 20-6876
Dear Mr. Harris:
Petitioner Leon Tollette filed his petition for writ of certiorari on January 8, 2021. Respondent
Warden’s counsel respectfully requests a 14-day extension for filing a brief in opposition to the
petition for writ of certiorari. Respondent’s brief is currently due in this Court on February 16,
2021. During the briefing period, undersigned counsel: 1) filed a 316 page direct appeal brief in
the Georgia Supreme Court on January 19, 2021 (Rodney Renia Young v. State, Case No.
S21P0078); 2) had an oral argument in the Eleventh Circuit Court of Appeals on January 26,
2021 (Willie James Pye v. GDCP, Warden, Case No. 18-12147); 3) and currently has a brief in
opposition to a petition for writ of certiorari due in this Court on February 12, 2021 (Richard
Sealey v. Benjamin Ford, Warden, GDCP, Case No. 20-6294). Given these responsibilities, a
14-day extension until March 2, 2021, would ensure that counsel for Respondent has adequate
time to properly respond to Tollette’s petition for writ of certiorari. Opposing counsel does not
oppose the request.
Sincerely,
s/Sabrina Graham
Sabrina Graham
Senior Assistant Attorney General
cc:

Anna Arceneaux

